Report No. D-2009-104                    September 21, 2009




      Sanitization and Disposal of Excess Information
                   Technology Equipment
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFB                           Air Force Base
ASD (NII)/DOD CIO             Assistant Secretary of Defense (Networks and Information
                                Integration)/DOD Chief Information Officer
DRMS                          Defense Reutilization and Marketing Service
IT                            Information Technology
NAS                           Naval Air Station
NAVAIR                        Naval Air Systems Command
NAVFAC                        Naval Facilities Engineering Command
NAWCAD                        Naval Air Warfare Center Aircraft Division
USACE                         U.S. Army Corps of Engineers
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON , VIRGINIA 22202-4704


                                                                               September 21, 2009



MEMORANDUM FOR DISTRIBUTION

SUBJECT: Sanitization and Disposal of Excess Information Technology Equipment
         (Report No. D-2009-104)

We are providing this final report for review and comment. We considered comments from the
Assistant Secretary of Defense (Networks and Information Integration)/DOD Chief Information
Officer; ChiefInformation Officer, Department of the Navy; Director of Corporate Information,
U.S. Army Corps of Engineers; and Commander, U.S. Army Corps of Engineers Louisville
District, when preparing the final report. The Commander, 436th Medical Group, Dover Air
Force Base, and the Commander, 50th Space Communications Squadron, Schriever Air Force
Base, did not respond to the draft report. The complete text of the comments is in the
Management Comments section of the report.

DOD Directive 7650.3 requires all recommendations be resolved promptly. The Assistant
Secretary of Defense (Networks and Information Integration)/DOD Chief Information Officer's
comments on Recommendation 1 and the Navy ChiefInformation Officer and Commander,
Naval Air Warfare Center Aircraft Division, comments on Recommendations 3, 4, 6.a, 6.b,
and 6.c were responsive and require no further comments. The Navy ChiefInformation Officer
and Commander, Naval Air Warfare Center Aircraft Division, comments on
Recommendation 6.d and the comments of the Director of Corporate Information, U.S. Army
Corps of Engineers, on Recommendation 2 were not responsive because the actions proposed
will not fully resolve the issues identified. The comments of the Commander, U.S. Army Corps
of Engineers Louisville District, on Recommendation 5 were not responsive because he did not
indicate which electronic record-keeping system would be used to track hard drives containing
sensitive information that are removed from their computer shells. Therefore, we request
comments as indicated in the recommendations table on page ii by October 21 , 2009.

Please provide comments that conform to the requirements of DOD Directive 7650.3. If
possible, send a .pdffile containing your comments to audros@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization. We
are unable to accept the I Signed I symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 604-
8905 (DSN 664-8905).




                                            (~~
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
DISTRIBUTION:


UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, AND
   LOGISTICS
ASSISTANT SECRETARY OF DEFENSE (NETWORKS AND INFORMATION
   INTEGRATION)/DOD CHIEF INFORMATION OFFICER
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT
   AND COMPTROLLER)
DIRECTOR, DEFENSE LOGISTICS AGENCY
      DIRECTOR, DEFENSE REUTILIZATION AND MARKETING SERVICE
NAVAL INSPECTOR GENERAL
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
DIRECTOR OF CORPORATE INFORMATION, U.S. ARMY CORPS OF
   ENGINEERS
COMMANDER, U.S. ARMY CORPS OF ENGINEERS LOUISVILLE DISTRICT
COMMANDER, U.S. ARMY GARRISON WEST POINT
      DIRECTOR OF LOGISTICS, U.S. ARMY GARRISON WEST POINT
COMMANDER, NAVAL AIR SYSTEMS COMMAND
      COMMANDER, NAVAL WARFARE CENTER AIRCRAFT DIVISION
      COMMANDER, NAVAL FACILITIES ENGINEERING COMMAND
COMMANDER, 436TH MEDICAL GROUP, DOVER AIR FORCE BASE
COMMANDER, 50TH NETWORK OPERATIONS GROUP, SCHRIEVER AIR
   FORCE BASE
      COMMANDER, 50TH SPACE COMMUNICATIONS SQUADRON
COMMANDER, 21ST SPACE WING COMMAND, PETERSON AIR FORCE BASE
COMMANDER, 108TH AIR REFUELING WING, MCGUIRE AIR FORCE BASE
      COMMANDER, 108TH COMMUNICATIONS FLIGHT
      COMMANDER, 108TH LOGISTICS READINESS SQUADRON
Report No. D-2009-104 (Project No. D2008-D000LC-0064.000)          September 21, 2009


             Results in Brief: Sanitization and Disposal of
             Excess Information Technology Equipment
What We Did                                             As a result, four DOD Components could not
                                                        ensure personally identifiable information or
We determined whether DOD Components
                                                        other sensitive DOD information was protected
sanitized and disposed of excess unclassified
                                                        from unauthorized release, and one DOD
information technology (IT) equipment in
                                                        Component could not account for an excess
accordance with Federal and DOD
                                                        unclassified computer.
requirements. We also determined whether the
Defense Reutilization and Marketing Service
(DRMS) disposed of excess IT equipment in               What We Recommend
accordance with security requirements; and              We recommended that:
whether the Army, Navy, and Air Force                      the Assistant Secretary of Defense
properly safeguarded sensitive information on                 (Networks and Information
excess unclassified IT equipment. We visited                  Integration)/DOD Chief Information
6 DOD Components, 9 DRMS processing                           Officer and the Deputy Chief of Naval
centers, and 2 contractors and selected a non-                Operations for Communications
statistical sample 543 of 4,105 pieces of excess              Networks update current sanitization and
unclassified IT equipment.                                    disposal policies to ensure they address
                                                              current technology issues;
What We Found                                              the Department of the Navy Chief
DOD Components’ internal controls were not                    Information Officer establish and
adequate. Specifically, DOD Components did                    implement a clear, detailed policy for
not properly sanitize, document, or fully account             sanitizing and disposing of excess IT
for excess unclassified IT equipment before                   equipment including electronic storage
releasing the equipment to other organizations.               devices; and
Furthermore, DRMS processing centers                       DOD Components sanitize and account
processed excess unclassified IT equipment for                for excess unclassified IT equipment in
disposal or redistribution without proof that                 accordance with applicable laws and
equipment had been properly sanitized.                        regulations.

These instances of nonperformance occurred              Management Comments and
because DOD Components did not follow                   Our Responses
policies, adequately train personnel, or develop        The Commander, 436th Medical Group, and the
and implement site-specific procedures to               Commander, 50th Space Communications
ensure excess unclassified equipment was                Squadron, did not provide comments on the
sanitized and disposed of properly.                     draft report issued on June 25, 2009. We
Additionally, DOD guidance issued by the                request comments from them on the final report
Assistant Secretary of Defense (Networks and            by October 21, 2009. Management comments
Information Integration)/DOD Chief                      we received were partially responsive. We
Information Officer and the Navy Chief                  request additional comments from the
Information Officer was out of date and did not         responding organizations as indicated in the
cover sanitizing and disposing of new types of          recommendations table on the back of this page.
information storage devices.


                                                    i
Report No. D-2009-104 (Project No. D2008-D000LC-0064.000)     September 21, 2009




Recommendations Table

Management                                      Recommendations       No Additional
                                                Requiring Comment     Comments Required
Assistant Secretary of Defense (Networks and                          1
Information Integration)/DOD Chief
Information Officer
Director of Corporate Information, U.S. Army    2
Corps of Engineers
Department of the Navy Chief Information        6.d                   3
Officer
Deputy Chief of Naval Operations for                                  4
Communications Networks
Commander, U.S. Army Corps of Engineers         5.a and 5.b
Louisville District
Commander, Naval Air Warfare Center Aircraft    6.d                   6.a; 6.b; and 6.c
Division
Commander, 436th Medical Group, Dover Air       7.a and 7.b
Force Base
Commander, 50th Space Communications            7.a and 7.b
Squadron, Schriever Air Force Base

Please provide comments by October 21, 2009.




                                           ii
Table of Contents

Results in Brief                                                                i

Introduction                                                                    1

       Objectives                                                               1
       Background                                                               1
       Review of Internal Controls                                              3

Finding. Protecting Sensitive Information and Accounting
  for Excess Information Technology Equipment                                   4

       Recommendations, Management Comments, and Our Response                   13

Appendices

       A. Scope and Methodology                                                 19
              Prior Coverage                                                    21
       B. Label Certifying Hard Drive Disposition                               22
       C. Immediate Action Memoranda to DOD Components                          23

Management Comments

       Assistant Secretary of Defense (Networks and Information Integration)/
        DOD Chief Information Officer                                           38
       Department of the Navy Chief Information Officer                         39
       U.S. Army Corps of Engineers Directorate of Corporate Information        43
       U.S. Army Corps of Engineers Louisville District                         44
Introduction
Objectives
Our audit objective was to determine whether DOD Components sanitized and disposed
of excess unclassified information technology (IT) equipment1 in accordance with
Federal and DOD regulations. We also determined whether the Army, Navy, and Air
Force properly safeguarded sensitive information on excess unclassified IT equipment by
sanitizing and accounting for the equipment before forwarding it to Defense Reutilization
and Marketing Service (DRMS) and whether the DRMS disposed of excess IT equipment
in accordance with DOD requirements. See Appendix A for a discussion of the scope and
methodology and prior coverage related to the objective.

Background
DOD Guidance
The Assistant Secretary of Defense for Command, Control, Communication, and
Intelligence2 Memorandum, “Disposition of Unclassified DOD Computer Hard Drives”
(Disposition Memorandum), June 4, 2001, states that no information is to remain on
unclassified IT equipment hard drives that are reused or permanently removed from DOD
custody. The Disposition Memorandum outlines three acceptable methods for hard drive
sanitization:

        Overwriting the hard drive by using software that replaces previously stored hard
         drive data with meaningless information. Only this method enables a hard drive
         to be redistributed for reuse.

        Degaussing a hard drive by demagnetizing it using a National Security Agency
         approved degausser. Properly applied, degaussing renders data on the hard drive
         unreadable. After degaussing, hard drives can seldom be used.

        Physically destroying a hard drive to ensure it is not usable in a computer and that
         no data can be recovered or read. Sufficient force is applied to the top of the hard
         drive unit to damage the disk surface. In addition, connectors that interface with
         the computer must be mangled, bent, or damaged to the point that the hard drive
         cannot be reconnected without significant rework. Before a hard drive is
         physically destroyed, it should be overwritten or degaussed. This method results
         in the hard drive being unusable.




1
 IT equipment that processed or contained unclassified information.
2
 The Assistant Secretary of Defense for Command, Control, Communication, and Intelligence used to
fulfill Chief Information Officer duties; those duties now belong to the Assistant Secretary of Defense
(Networks and Information Integration)/DOD Chief Information Officer.


                                                     1
In addition, the Disposition Memorandum requires DOD Components to complete a
disposition label certifying that sanitization has been performed. The completed
disposition label must be attached to the hard drive or the computer housing the hard
drive. The disposition label details basic information about the DOD Component,
computer, and hard drive; the method and software used to sanitize the hard drive, if
applicable; the method for destroying the hard drive, if applicable; and the signature and
contact information for the DOD Component personnel that performed the sanitization.

DOD Components send their excess IT equipment to DRMS processing centers. DRMS
processing centers make excess IT equipment available to another DOD Component,
another Federal agency, or a school or other nonprofit organization; sell it to the public;
or destroy it.

DOD Components are required to sanitize excess or surplus unclassified IT equipment in
accordance with the Disposition Memorandum before sending it to a DRMS processing
center. DRMS is responsible for training DOD Components on turn-in procedures,
including inspecting and classifying property, verifying identity and quantity on disposal
documentation, and maintaining property accountability for and control of excess
equipment.

Based on the DOD Directive 8100.01, “Global Information Grid Overarching Policy,”
November 21, 2003, definition of IT equipment,3 we identified the following as IT
equipment: computers (desktops and laptops), external/auxiliary hard drives, printers,
scanners, cell phones, personal digital assistants, removable storage devices (such as
thumb drives, moving picture experts group audio layer III [mp3] players, diskettes,
compact discs, digital video discs, and subscriber identity module cards). During
FYs 2007 and 2008, DOD disposed of 340,349 pieces of useable IT equipment and
57,485,000 pounds of scrap IT equipment.

DOD Instruction 5000.64, “Accountability and Management of DOD Owned Equipment
and Other Accountable Property,” November 2, 2006, requires that an electronic property
receipt record be maintained throughout the property’s life cycle regardless of its status
(acquisition, in-service, unserviceable, obsolete, excess, surplus) or physical location. To
account for the IT assets, this Instruction also requires that excess unclassified IT
equipment with a unit acquisition cost of $5,000 or more, or equipment that is considered
to be sensitive, be accounted for in an electronic record-keeping system until the activity
receiving the equipment confirms its receipt in writing.

Industry Sanitization Guidelines
The National Institute of Standards and Technology is responsible for developing
standards and guidelines for providing adequate information security for all Federal


3
 DOD Directive 8100.01 defines IT equipment as any equipment or interconnected system or subsystem of
equipment that is used in the automatic acquisition, storage, manipulation, management, movement,
control, display, switching, interchange, transmission, or reception of data or information by a DOD
Component.


                                                 2
agency operations and assets. National Institute of Standards and Technology Special
Publication 800-88, “Guidelines for Media Sanitization,” September 2006, outlines
specifications for the:

      sanitization and disposal of information storage devices based on ownership;
      overwriting, degaussing, and destruction of excess information storage devices;
       and
      completion of sanitization, disposition, and accountability documents.

National Institute of Standards and Technology Special Publication 800-88 requires
organizations to develop and use local policies and procedures in conjunction with this
publication to decide the method of sanitization and disposition of information storage
devices.

Review of Internal Controls
At the sites visited, we identified internal control weaknesses as defined by DOD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006. DOD Components and DRMS processing centers did not follow relevant DOD
policies, adequately train personnel, or develop and implement site-specific procedures to
ensure excess unclassified IT equipment was properly sanitized and accounted for. In
addition, DOD and Navy policies governing the sanitization of excess IT equipment were
outdated. Implementing Recommendations 1 through 7 will improve DOD sanitization
and disposal processes. We will provide a copy of this report to the senior officials
responsible for internal controls for the Assistant Secretary of Defense (Networks and
Information Integration)/DOD Chief Information Officer (ASD[NII])/DOD CIO) and the
Army, Navy, and Air Force.




                                            3
Finding. Protecting Sensitive Information
and Accounting for Excess Information
Technology Equipment
DOD Components did not properly sanitize, document, or fully account for excess
unclassified IT equipment before it was released to other Federal, DOD, or non-Federal
organizations. In addition, DRMS processing centers processed excess unclassified IT
equipment without documentation that the equipment was properly sanitized. DOD
Components and DRMS processing centers fell short because they did not follow DOD
policies, adequately train personnel, or develop and implement site-specific procedures to
ensure excess unclassified IT equipment was properly accounted for and sanitized.
Furthermore, DOD and Navy policies governing the sanitization of excess IT equipment
are outdated. As a result, four DOD Components could not ensure that personally
identifiable information or other sensitive DOD information was protected from
unauthorized release, and one DOD Component could not account for an excess
unclassified computer.

Processing Excess Unclassified IT Equipment
DOD Components are required to sanitize excess IT equipment before disposal to protect
sensitive DOD information, as well as other sensitive information such as personally
identifiable information, from public disclosure. Public disclosure of this information
can cause harm to DOD and its operations and potentially to individuals whose personal
information has been compromised. Therefore, this process is required to be adequately
documented to ensure required procedures have been followed. Finally, DOD
Components are also required to properly maintain and account for IT equipment
throughout its life cycle.

Sanitizing Excess Unclassified IT Equipment
DOD Components did not properly sanitize IT equipment before processing it for reuse,
transfer, donation, or destruction in accordance with the Disposition Memorandum. The
Disposition Memorandum requires that no information is to remain on hard drives of
unclassified IT equipment that are reused or permanently removed from DOD custody.
At 4 locations we identified 10 pieces of excess unclassified IT equipment that contained
readable information on hard drives. Specifically, the following pieces of excess
unclassified IT equipment contained readable information.

      An electrocardiogram machine waiting to be shipped from the 436th Medical
       Group at Dover Air Force Base (AFB), Delaware, to another Air Force
       component contained the full names and Social Security numbers of three
       patients. Officials told us that the electrocardiogram machine contained this
       information because the 436th Medical Group personnel were unaware that some
       medical equipment, such as electrocardiogram machines, contained hard drives.



                                            4
       The 436th Medical Group officials said they had not been properly trained to
       sanitize all types of excess unclassified IT equipment.

      Five hard drives waiting to be shipped from the Naval Air Warfare Center
       Aircraft Division (NAWCAD), Naval Air Station (NAS) Patuxent River,
       Maryland, to a DRMS processing center contained readable information. One
       computer contained information such as phone numbers, e-mail addresses, instant
       messaging traffic, pictures, and various system log files. These hard drives
       contained information because the Naval Air Systems Command (NAVAIR) and
       NAWCAD had not adequately trained personnel responsible for sanitizing
       equipment or developed site-specific policies that clearly defined sanitization and
       disposal roles and responsibilities. For example, NAWCAD lab personnel had
       not received formal training on degaussing equipment and, in one instance, used
       an audio-video degausser to degauss hard drives.

      Three hard drives waiting to be redistributed from the 50th Space Communications
       Squadron, Schriever AFB, Colorado, to another Schriever AFB command
       contained personal user folders or default operating system information. The
       information remained on the equipment because the 50th Space Communications
       Squadron had not established and implemented a process ensuring that excess
       unclassified IT equipment containing more than one hard drive was properly
       sanitized. Two of the three hard drives that were not properly sanitized were
       pulled from computers that housed more than one hard drive, and the equipment
       custodian did not physically verify whether these computers contained more than
       one hard drive. No explanation was available as to why the third hard drive had
       not been properly sanitized.

      A hard drive sent from the U.S. Army Garrison West Point, New York, to a
       DRMS processing center contained bytes of random characters. Officials told us
       that this occurred because the U.S. Army Garrison West Point did not properly
       train personnel. In addition, U.S. Army Garrison West Point did not follow
       proper procedures by performing the required verification of sanitized excess
       unclassified IT equipment before sending equipment to a DRMS processing
       center.

During our site visit in June 2008, the U.S. Army Corps of Engineers (USACE)
Louisville District, Louisville, Kentucky, was properly sanitizing excess hard drives.
However, in August 2008 the Director of Corporate Information instituted a new process
for the sanitization and disposal of USACE excess hard drives whereby a contractor
physically destroys them. The new process is outlined in the draft Army Corps of
Engineers IT Standard Operating Procedure, “Process for Hard Drive Destruction,”
August 6, 2008. The Army Corps of Engineers IT Standard Operating Procedure
requires the physical destruction of hard drives to be conducted in accordance with Army
Regulation 25-2, “Information Assurance,” October 24, 2007. Yet whereas Army
Regulation 25-2 requires all excess unclassified Army hard drives to be overwritten or
degaussed before leaving DOD custody, the Army Corps of Engineers IT Standard


                                            5
Operating Procedure does not require hard drives to be overwritten or degaussed before
shipping to the contractor. As a result of changing the process, USACE cannot ensure
DOD information is properly protected from unauthorized release.

As a result of these weaknesses, five DOD Components sent or were preparing to send
excess IT equipment containing DOD information (including personally identifiable
information) to other Federal, DOD, or non-Federal organizations.

Documenting Sanitization of Excess Unclassified IT Equipment
Five DOD Components did not properly complete documentation for excess unclassified
IT equipment submitted to DRMS processing centers. The Disposition Memorandum
states that once sanitization has been carried out, a signed disposition label4 must be
attached to the hard drive or the computer housing the hard drive. Disposition labels
verify that the equipment was properly sanitized. The disposal turn-in documents
provide DRMS processing centers with key information needed to process excess
equipment. During fieldwork we identified the following examples of the lack of
supporting documentation.

       USACE Louisville District did not accurately complete disposition labels for 4 of
        the 10 computers sampled. Two disposition labels were missing the sanitization
        date, one disposition label was missing the make and model, and the fourth
        disposition label had no signature date. The disposition labels were not properly
        completed because USACE Louisville District did not adequately train
        responsible personnel to properly complete disposition labels.

       The U.S. Army Garrison West Point did not properly prepare disposition labels
        for two of four excess unclassified hard drives. The hard drives did not have a
        disposition label or did not have a properly prepared disposition label. One of
        these computers contained information on its hard drive. Officials said the
        disposition labels were not attached or were improperly prepared because the U.S.
        Army Garrison West Point did not adequately train the responsible personnel to
        attach or complete disposition labels.

       Two NAVAIR data centers and two labs located at NAS Patuxent River did not
        complete disposition labels for excess unclassified IT equipment. This occurred
        because personnel were not aware of the Disposition Memorandum requirements.
        In addition, three NAWCAD computers were turned into the Naval Facilities
        Engineering Command (NAVFAC) Property Disposal Office without disposal
        turn-in documents. Furthermore, for one sampled computer, NAWCAD
        personnel generated and submitted a duplicate disposal turn-in document number5


4
  See Appendix B for a more detailed description of a hard drive disposition label showing the types of
information DOD Components frequently omitted.
5
  The disposal turn-in document number is a distinct 14-digit number that consists of the DOD activity’s
six-digit DOD activity address code, four-digit Julian date, and four-digit serial number.



                                                     6
         to a DRMS processing center. The NAVFAC Property Disposal Office personnel
         did not know which NAS Patuxent River activity had turned in three computers
         without supporting documentation. Barcodes indicated that the computers
         belonged to NAWCAD, but that was insufficient information to determine which
         NAWCAD division owned the computers. Furthermore, NAWCAD personnel
         created duplicate disposal turn-in document numbers because personnel used
         different methods that did not interface to generate disposal turn-in document
         numbers.

        The 108th Air Refueling Wing at McGuire AFB, New Jersey, did not attach or
         fully complete disposition labels for 92 pieces of excess unclassified IT
         equipment. Wing personnel did not attach disposition labels to 51 hard drives and
         did not indicate the method of sanitization for 41 computer shells. They also did
         not attach or complete disposition labels as required by the Disposition
         Memorandum and Air Force System Security Instruction 5020, “Communications
         and Information Remanence Security,” April 17, 2003.

        The 50th Space Communication Squadron at Schriever AFB did not attach
         disposition labels to six computers because personnel did not follow the
         Disposition Memorandum or Air Force Instruction 5020, which require that a
         disposition label be attached to the hard drive or the computer housing the hard
         drive. We were told that the 50th Space Communications Squadron personnel
         attach disposition labels only to computers being sent to DRMS processing
         centers.

In addition, DRMS processing centers processed 108 out of 148 pieces of excess
unclassified IT equipment without documentation that the equipment had been properly
sanitized. Nine DRMS processing centers processed 41 pieces of equipment that did not
include disposition labels, 64 pieces of equipment that had incomplete disposition labels,6
and 3 pieces of equipment that had inaccurate disposition labels.7 Appendix B shows an
example of the disposition label highlighting the types of missing information. Officials
said that DRMS processed excess unclassified IT equipment without supporting
documentation because DRMS had experienced significant turnover in personnel and had
not trained new staff.

Since five DOD Components did not properly complete supporting documentation and
nine DRMS processing centers processed excess unclassified IT equipment without
proper documentation, DOD was unable to ensure that information contained on excess
unclassified IT equipment was properly protected from unauthorized release.


6
 Incomplete disposition labels are labels that did not have the date and signature from the DOD
Component verifying that the hard drive was sanitized or did not state the method of sanitization.
7
 Inaccurate disposition labels are labels that did not accurately reflect the equipment status (for example, a
disposition label stating that the hard drive was removed, attached to a computer in which the hard drive
was present).


                                                      7
Accounting for Excess Unclassified IT Equipment
DOD Components did not account for excess unclassified hard drives after they were
removed from computer shells, nor did they account for other pieces of excess
unclassified IT equipment throughout their life cycle. DOD Instruction 5000.64 requires
that excess unclassified IT equipment having a unit acquisition cost of $5,000 or more
and assets that are sensitive be accounted for in an electronic record-keeping system until
the activity receiving the equipment confirms receipt of equipment in writing. This
requirement ensures that the information contained on the equipment is protected and the
equipment itself is accounted for throughout its life cycle.

At 5 of the 15 locations visited, DOD personnel did not account for hard drives after they
were removed from computer shells. At 2 of the 15 locations, personnel did not account
for other pieces of excess IT equipment throughout their life cycle. Following are
examples of the accountability issues identified.

      USACE Louisville District did not account for 11 excess unclassified hard drives
       after they were removed from their computer shells. USACE Louisville District
       standard operating procedure did not include procedures to electronically account
       for physically removed hard drives. For example, USACE did not have an
       electronic log to document hard drives that were stockpiled and unable to be
       properly sanitized.

      NAVAIR labs and data centers at NAS Patuxent River did not electronically
       account for excess unclassified hard drives that had been removed from the
       computer shells. Personnel were unaware that they needed to account for hard
       drives removed from their computer shells. In addition, the NAWCAD Property
       Management Team removed the equipment from the Navy Enterprise Resource
       Planning system too early. The team should have waited to remove the
       equipment from the system until they received documentation from DRMS stating
       that the equipment had been received and processed. Instead, the NAWCAD
       Property Management Team removed the equipment from the system when they
       received a receipt from the NAVFAC Property Disposal Office.

      The 436th Medical Group at Dover AFB did not electronically account for
       105 hard drives removed from their computer shells because personnel were
       unaware that removed hard drives in the process of being degaussed needed to be
       accounted for electronically.

      The 108th Air Refueling Wing at McGuire AFB did not account for 92 pieces of
       excess unclassified IT equipment throughout their entire life cycle. Personnel
       removed IT equipment from the electronic record-keeping system too early. The
       92 pieces of excess unclassified IT equipment were removed from the electronic
       record-keeping system when they were turned into the Communications Flight
       Unit for sanitization and disposal instead of when DRMS received and processed
       them.



                                             8
      The 50th Space Communications Squadron at Schriever AFB did not
       electronically account for hard drives removed from their computer shells because
       personnel considered hard drives to be accounted for as part of the original
       computer shell.

DOD did not properly account for at least 208 pieces of excess unclassified IT equipment
in an electronic record-keeping system because DOD Components did not consider
physically removed hard drives accountable assets. Therefore, personnel did not follow
established criteria. As a result, DOD cannot ensure that excess unclassified IT
equipment is accounted for or properly protected from unauthorized release. It is
imperative that DOD Components account for excess unclassified IT equipment
throughout its life cycle to protect information on the equipment. For the same reason, it
is critical to account for hard drives removed from their computer shells.

DOD and Navy Sanitization Policies
DOD Components are required to ensure the timely issuance and updating of policies
governing DOD operations, functions, and programs. Specifically, Components are
required to review existing policies periodically to determine whether the policies should
be updated, incorporated in or converted to a DOD issuance, reissued, or canceled. If
DOD Component personnel fail to conduct the periodic reviews and updates, critical
policies may not provide the specific guidance needed to carry out DOD functions
effectively.

DOD Policy
The ASD(NII)/DOD CIO has not updated the Disposition Memorandum since it was
issued in June 2001. The Disposition Memorandum’s policies and procedures were
intended to ensure that all hard drives contained in excess unclassified computers were
properly sanitized before being disposed of outside DOD. However, the Disposition
Memorandum does not address other types of DOD information storage devices in use at
the time—such as printers and fax machines—nor has it been updated to include new
information storage devices, such as thumb drives, compact discs, digital video devices,
and digital data or voice recorders, which can also contain sensitive DOD information.
The failure to include all current types of information storage devices in the Disposition
Memorandum creates vulnerability that these devices will not be properly sanitized of all
sensitive information before disposal.

Furthermore, DOD Instruction 5025.01, “DOD Directive Program,” October 28, 2007,
requires that a DOD Directive-Type Memorandum be incorporated in existing policy,
converted to a new policy, reissued, or canceled within 180 days of the issuance of the
Instruction. The ASD(NII)/DOD CIO has not followed the Instruction.

An ASD (NII)/DOD CIO Senior Policy Analyst stated he had not updated the Disposition
Memorandum because of the competing priorities of national security and scarce
resources.



                                            9
Navy Policy
The Department of the Navy has not updated Navy-specific criteria for the sanitization
and disposal of excess IT equipment to fully implement the Disposition Memorandum.
Nor has the Navy updated its instructions to include newer information storage devices
such as thumb drives and digital video devices. The Deputy Chief of Naval Operations
for Communications Networks has not updated Navy Information Assurance
Publication 5239-26 since it was issued in May 2000.8 The Navy Publication provides
instructions to Navy Components on:

       sanitization of electronic storage media for later reuse,
       methods for destruction of electronic storage media, and
       removal of external markings from electronic storage media.

The Disposition Memorandum outlines policies and procedures to ensure that hard drives
in excess unclassified computers are properly sanitized before being disposed of outside
of DOD. The Navy Publication includes the three sanitization methods outlined in the
Disposition Memorandum, but does not require the completion and attachment of the
disposition label validating that the hard drive was sanitized. Also, the Navy Publication
does not require the verification of overwriting, the method used to sanitize at least
20 percent of the Navy’s excess hard drives. Therefore, Navy Components were not
required to include completed disposition labels or validate that sanitization had actually
occurred before releasing the excess IT equipment for disposal outside DOD.

According to an official from the Office of the Deputy Chief of Naval Operations for
Communications Networks, the Navy publication had not been updated because the Navy
had competing priorities and scarce resources.

The DOD Disposition Memorandum and Navy Publication 5239-26 are out-of-date and
do not contain requirements needed to address all types of information storage devices
and to ensure these devices are sanitized and disposed of correctly to protect sensitive
data. The lack of specific, up-to-date guidance is contributing to DOD Components’ not
sanitizing and disposing of all types of IT equipment properly, including information
storage devices.

Corrective Actions
We issued memoranda to Commander, 436th Medical Group, Dover AFB; Commander,
U.S. Army Garrison West Point; Director of Information Management, U.S. Army
Garrison West Point; Commander, 108th Air Refueling Wing, McGuire AFB;
Commander, 108th Communications Flight; Commander, 108th Logistics Readiness
Squadron; Commander, 50th Network Operations Group; Commander, 50th Space


8
  Army Regulation 25-1, “Army Knowledge Management and Information Technology,” July 15, 2005,
and Air Force System Security Instruction 5020, “Communications and Information Remanence Security,”
April 17, 2003, both incorporate the requirements of the Disposition Memorandum. In addition, both
instructions include guidance on the sanitization of new types of information storage devices.


                                                 10
Communications Squadron, Schriever AFB; Commander, Naval Air Systems Command
Patuxent River; Commander, Naval Air Warfare Center Aircraft Division, and Deputy
Public Works Officer, Naval Facilities Engineering Command. See Appendix C for the
full text of the five memoranda. The memoranda provided feedback on areas of concern
that needed management’s immediate attention. DOD Components have taken
preliminary steps to correct weaknesses identified; however, additional work is needed.
The additional work needed is addressed in our recommendations.

Actions to Improve Information Security
As a result of the audit, the Components recognized the need to adequately sanitize IT
equipment, train personnel, and establish written policies and procedures. Since our site
visits, officials have taken the following steps to strengthen the sanitization and disposal
process.

      As of November 2008, the USACE Louisville District required the completion
       and attachment of a property control receipt and a disposition label to all excess
       computers and hard drives removed from their computer shells.

      The U.S. Army Garrison West Point has established policy that outlines
       procedures for proper sanitization of excess unclassified IT equipment.
       According to the Garrison Commander, the policy will identify organizational
       responsibilities and training requirements. The Directorate of Information
       Management will provide the training, and has scheduled training on the
       sanitization and disposal of information storage devices for the third quarter of
       FY 2009. Finally, the Director of the Internal Review and Audit Compliance
       Office at West Point plans to conduct a compliance review during the third
       quarter of FY 2009.

      According to the Commander, Naval Air Systems Command, NAWCAD intends
       to coordinate with the NAVAIR Chief Information Officer to develop appropriate
       processes and procedures relating to sanitization and disposal of excess IT
       equipment and will use only one system to generate disposal turn-in documents.
       However, they do not believe that the ETID system will be the one. In addition,
       the NAVFAC Deputy Public Works Officer at NAS Patuxent River has started
       updating written policy to clarify the process for sanitizing and disposing of
       excess IT equipment.

      The Commander, 436th Medical Group, Dover AFB, implemented a process in
       July 2008 to check medical equipment for embedded hard drives and remove
       personally identifiable information before sending the equipment to DRMS
       processing centers. All biomedical equipment repair technicians and medical
       information systems technicians at the 436th Medical Group have been trained on
       the new procedures for removing and degaussing equipment and using authorized
       overwriting software to clean hard drives. In addition, the 436th Medical Group
       asked the Air Force Medical Logistics Office to include the new procedures in the
       Air Force Instruction governing medical equipment maintenance and repair.


                                             11
      The 108th Communications Flight, McGuire AFB is now completing and
       attaching disposition labels to the outside of excess computers and hard drives
       removed from their computer shells.

      The Commander, 50th Network Operations Group, and the 50th Communications
       Squadron, Schriever AFB, are implementing requirements to verify the number of
       hard drives in an IT unit when the equipment is turned in. The two units are also
       developing sanitization training, purchasing degaussing equipment, and updating
       current procedures to incorporate the requirements in Air Force System Security
       Instruction 8580. According to the lead equipment custodial officer, since June
       2008, personnel from the 50th Network Group and the 50th Communications
       Squadron have been completing and attaching disposition labels to IT equipment
       being sanitized and reused within the 50th Network Operation Group and the
       50th Communications Squadron.

      According to DRMS personnel, DRMS is revising the Compliance Assessment
       Program to address the proper process for receiving computer hard drives.
       DRMS is developing a new training course called “Guidance for Computers, Hard
       Drives, Electronic Test Equipment, Cell Phones, Fax Machines, Printers, and
       Land Mobile Radios.” Furthermore, management at the DRMS Mechanicsburg
       processing center immediately held a stand-down with all receiving employees to
       provide remedial refresher training reiterating the instructions for the proper
       processing of computers.

These DOD Components have taken corrective action to address some of the internal
control weaknesses identified during the audit; therefore, we are not making
recommendations related to the corrective actions taken.

Actions to Improve Property Accountability
As a result of our audit, the Commander, 108th Communications Flight, recognized the
need to properly account for excess unclassified IT equipment. The
108th Communications Flight, McGuire AFB, created an additional equipment custodian
account in the Information Technology Automated Management System to maintain
100-percent accountability for customer turned-in IT equipment that is considered excess.
In addition, the 108th Communications Flight unit developed an Excel spreadsheet
application to maintain 100-percent accountability for hard drives that are removed from
computers or laptops. Therefore, we are not making a recommendation to the
Commander, 108th Communications Flight, on these issues.

Actions to Improve Physical Protection of Excess Hard Drives
During the audit, we informed the Commander, 108th Communications Flight, of the lack
of sufficient physical protection for excess hard drives removed from computer shells.
Although the Commander, 108th Communication Flight, felt physical security measures
were sufficient, he agreed to improve the physical protection of excess hard drives. Since
our site visit, the 108th Communications Flight, purchased locks for the storage containers


                                            12
that housed the excess hard drives, and personnel label the storage containers to indicate
which hard drives are awaiting sanitization and which ones are sanitized. Therefore, we
are not making a recommendation to the Commander, 108th Communications Flight, on
this issue.

Conclusion
The six DOD Components visited or contacted did not properly sanitize, document, or
fully account for excess unclassified IT equipment before it was released to other Federal,
DOD, or non-Federal organizations. Also, eight of the nine DRMS processing centers
visited processed excess unclassified IT equipment without documentation that the
equipment was properly sanitized. Action has been taken to correct some of the
problems identified during the audit. Implementing the following recommendations will
further improve DOD sanitization and disposal processes for excess unclassified IT
equipment and ensure that all problems identified are corrected.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Assistant Secretary of Defense (Networks and
Information Integration)/DOD Chief Information Officer, in accordance with DOD
Instruction 5025.01, “DOD Directive Program,” October 28, 2007, update the
memorandum, “Disposition of Unclassified DOD Computer Hard Drives,” June 4,
2001 (Disposition Memorandum), to incorporate guidelines for sanitizing and
disposing of all types of information technology equipment, including other
information storage devices. When updating the Disposition Memorandum, the
Assistant Secretary of Defense (Networks and Information Integration)/DOD Chief
Information Officer should consider the requirements outlined in National Institute
of Standards and Technology Special Publication 800-88, “Guidelines for Media
Sanitization,” September 2006.

Assistant Secretary of Defense (Networks and Information
Integration)/DOD Chief Information Officer Comments
The Principal Director to the Deputy Assistant Secretary of Defense for Cyber,
Information, and Identity Assurance, responding for the Assistant Secretary of Defense
(Networks and Information Integration)/DOD Chief Information Officer, agreed. He
stated the Disposition Memorandum will be updated and incorporated in DOD
Directive 8500.01E, “Information Assurance,” October 24, 2002, certified current as of
April 23, 2007, and DOD Instruction 8500.2, “Information Assurance Implementation,”
February 6, 2003, by the end of 2009.

Our Response
The comments of the Principal Director were responsive. No additional comments are
required.




                                            13
2. We recommend that the Director of Corporate Information, U.S. Army Corps of
Engineers, reinstitute overwriting or degaussing of hard drives before shipping the
hard drives to the contractor.

U.S. Army Corps of Engineers Comments
The Director of Corporate Information, USACE, agreed with comments on the disposal
procedures. The Director stated that the procedures for shipping hard drives had been
suspended pending the audit finding but have since been revised. The Director stated that
the excess hard drives are being shipped for destruction to a facility approved by the U.S.
General Services Administration and are not being released for reuse. Therefore, he
asserted that neither overwriting nor degaussing the hard drives is required under DOD
regulations. In addition, the Director stated that controls and oversight were in place to
protect the information contained on these unclassified hard drives during transport.
According to the Director, because of personnel and funding constraints, USACE has
chosen to destroy the hard drives at a facility rather than onsite. Finally, the Director
stated that the revised procedures comply with Army Regulations, protect the information
contained on the hard drives, and are cost-effective. These revised procedures were to be
in place by August 30, 2009.

Our Response
The comments of the Director of Corporate Information, USACE, were partially
responsive. We agree that USACE had suspended shipping hard drives to destruction
facilities. Also, we commend the USACE for the additional controls put in place when
transporting the hard drives for destruction at an approved facility. However, if USACE
does not, at a minimum, overwrite the hard drives that are to be removed from service
before transporting them for destruction, the USACE procedures do not meet the
requirements outlined in Section 3.1.1 of the Disposition Memorandum. Section 3.1.1
requires hard drives to be overwritten before reuse or removal from service. If the hard
drives are to be removed from service, the hard drives are also required to be degaussed
or destroyed. Sensitive data, such as personally identifiable information, could be
compromised during the storage and transportation of the hard drives—especially since
the hard drives are leaving DOD custody. If Section 3.1.1 is followed and the hard drives
are overwritten by the user as required, there should be no readable data on the hard
drives to be compromised. Therefore, we do not believe that the USACE procedures
fully meet the requirements of Section 3.1.1. We request that the Director of Corporate
Information, USACE, reconsider his position on the recommendation and provide
additional comments in response to the final report.

3. We recommend that the Navy Chief Information Officer establish and implement
guidelines for sanitizing and disposing of all types of information technology
equipment including other information storage devices in accordance with current
and future sanitization and disposal policy issued by the Assistant Secretary of
Defense (Networks and Information Integration)/DOD Chief Information Officer.
When establishing and implementing guidelines, the Navy Chief Information




                                            14
 Officer should consider the requirements outlined in National Institute of
Standards and Technology Special Publication 800-88, “Guidelines for Media
Sanitization,” September 2006.

Department of the Navy Comments
The Navy Chief Information Officer agreed. The Acting Deputy Chief Information
Officer stated that the Chief Information Officer will coordinate and establish the
recommended policy within the Department, including the Navy, Marine Corps, and the
Chief of Naval Operations Special Assistant for Security, with an estimated completion
date of December 30, 2009.

Our Response
The comments of the Acting Deputy Chief Information Officer were responsive, and no
additional comments are required.

4. We recommend that the Deputy Chief of Naval Operations for Communications
Networks update Navy Information Assurance Publication 5239-26, “Remanence
Security Guidebook,” May 2000, to comply with the current version of the
Disposition Memorandum, “Disposition of DOD Computer Hard Drives,” June 4,
2001, and any updates coming out of Recommendation 1.

Department of the Navy Comments
The Navy Chief Information Officer and the Deputy Chief of Naval Operations for
Communications Networks agreed. The Acting Deputy Chief Information Officer stated
that the Deputy Chief of Naval Operations for Communications Networks will work with
the Acting Deputy Chief Information Officer to release guidance that addresses the
weaknesses identified in this report. The estimated release date for the new guidance is
December 30, 2009. Furthermore, the Deputy Chief of Naval Operations for
Communications Networks will coordinate and update Navy Information Assurance
Publication 5239-26, “Remanence Security Guidebook,” May 2000, to fully implement
the Disposition Memorandum, “Disposition of DOD Computer Hard Drives,” June 4,
2001; include additional types of electronic storage devices; and consider National
Institute of Standards and Technology Special Publication 800-88, “Guidelines for Media
Sanitization,” September 2006. She estimated the update of Navy Information Assurance
Publication 5239-26 will be completed by January 29, 2010.

Our Response
The comments of the Acting Deputy Chief Information Officer and the Deputy Chief of
Naval Operations for Communications Networks were responsive, and no additional
comments are required.

5. We recommend that the Commander of the U.S. Army Corps of Engineers
Louisville District:

       a. Account for all hard drives removed from their computer shells.



                                          15
        b. Account for hard drives removed from their computer shells that contain
sensitive information in an electronic record-keeping system as required by DOD
Instruction 5000.64, “Accountability and Management of DOD Owned Equipment
and Other Accountable Property,” November 2, 2006.

U.S. Army Corps of Engineers Louisville District Comments
The Commander, USACE Louisville District, agreed. He stated that the Louisville
District has implemented corrective actions to account for the hard drives of any
computers that are not a part of the Army Corps of Engineers IT refresher program.
Specifically, the USACE Louisville District will attach a disposition label and property
control receipt to all excess computers and hard drives. Further, if guidance for the Army
Corps of Engineers IT refresher program is not provided by headquarters, the USACE
Louisville District will store the equipment until guidance is provided. Finally, the
USACE Louisville District has implemented an electronic record-keeping system to track
equipment that contains sensitive information in accordance with DOD
Instruction 5000.64, “Accountability and Management of DOD Owned Equipment and
Other Accountable Property,” November 2, 2006.

Our Response
The comments of the Commander, USACE Louisville District, are generally responsive.
We agree with the corrective actions that are planned. However, the Commander did not
provide estimated completion dates for the corrective actions. Also, for
Recommendation 5.b, the Commander did not indicate which electronic record-keeping
system would be used to track hard drives containing sensitive information that are
removed from their computer shells. The only additional comments needed are the
estimated dates of completion for these actions and the electronic record-keeping system
that will be used to track the hard drives.

6. We recommend that the Commander of the Naval Air Warfare Center Aircraft
Division:

       a. Require all personnel responsible for sanitization and disposal to comply
with the memorandum, “Disposition of Unclassified DOD Computer Hard Drives,”
June 4, 2001, and any future updates.

       b. Account for all hard drives removed from their computer shells.

        c. Account for hard drives removed from their computer shells that contain
sensitive information in an electronic record-keeping system as required by DOD
Instruction 5000.64, “Accountability and Management of DOD Owned Equipment
and Other Accountable Property,” November 2, 2006.

       d. Remove excess information technology equipment from the Navy
Enterprise Resource Planning System only after obtaining an official receipt from
the Defense Reutilization and Marketing Service processing center, as required by


                                           16
DOD Instruction 5000.64, “Accountability and Management of DOD Owned
Equipment and Other Accountable Property,” November 2, 2006.

Department of the Navy Comments
The Navy Chief Information Officer and the Commander of the Naval Air Warfare
Center Aircraft Division agreed with Recommendation 6.a. Specifically, the Commander
stated that personnel responsible for the disposal of hard drives would be trained to
ensure compliance with the Disposition Memorandum, “Disposition of DOD Computer
Hard Drives,” June 4, 2001. The estimated completion date for the training is
November 30, 2009.

The Navy Chief Information Officer and the Commander of the Naval Air Warfare
Center Aircraft Division agreed with Recommendations 6.b and 6.c. The Commander
stated that the division will perform an evaluation of existing electronic systems or
develop a new system to electronically account for all hard drives removed from their
computer shells. In addition, he stated the division will no longer use the National
Security Agency to destroy hard drives, but will coordinate disposal of excess hard drives
with the Defense Reutilization Marketing Service. The Commander estimated that these
actions will be completed by December 31, 2009.

The Navy Chief Information Officer and the Commander of the Naval Air Warfare
Center Aircraft Division agreed with Recommendation 6.d. According to the
Commander, the Property Management Team will remove excess IT equipment from the
Navy Enterprise Resource Planning System once it receives a stamped DD 1348 from
Naval Facilities Engineering Command’s Property Disposal Office. In addition, the
Property Management Team will continue to use the Naval Air Warfare Center Aircraft
Division Excess Asset Form to ensure IT equipment is properly sanitized before release.
According to the Commander of the Naval Air Warfare Center Aircraft Division, the
required documentation takes years to be received from DRMS processing centers.

Our Response
The comments of the Navy Chief Information Officer and Commander of the Naval Air
Warfare Center Aircraft Division were responsive on Recommendations 6.a, 6.b, and 6.c,
and no additional comments are required. However, the comments on
Recommendation 6.d were nonresponsive, for the following reasons.

The internal controls described by the Commander as having been instituted to
implement Recommendation 6.d are the current procedures, rather than revised
procedures. Therefore, the procedures as stated will continue to result in the same
problems described in this report, problems that resulted in Recommendation 6.d.

If it removes excess IT equipment from the system when a stamped DD 1348 is received
from the Naval Facilities Engineering Command Property Disposal Office, the Property
Management Team will continue to remove excess IT equipment from the Navy
Enterprise Resource Planning System prematurely, leaving equipment unaccounted for.
The Property Disposal Office does not account for excess information technology


                                            17
equipment dropped off at its office, but merely operates as a holding facility and forwards
equipment to the processing centers for disposal. Therefore, using documentation
supplied by the Property Disposal Office to record disposal and removal of the IT
equipment from the Navy Enterprise Resource Planning System is inaccurate and leaves
the IT equipment unaccounted for until it reaches its final destination—the Defense
Reutilization and Marketing Service. The Property Management Team is responsible for
the management, tracking, reutilization, and disposition of all plant and minor property
and for ensuring equipment is appropriately and accurately accounted for until disposal.

With regard to the Defense Reutilization and Marketing Service’s processing centers’
taking years to forward disposal information, the Web Enabled Document Conversion
System (Web DOCS) was developed to provide electronic receipts for DOD
Components. Web DOCS is a worldwide, Web-based system designed to provide an
audit trail for DD 1348 documents. The system serves as the official record for turn-ins
and is used to review and retrieve data and images. Customers can immediately retrieve
an electronic image of a processed DD 1348. The Property Management Team can use
Web DOCS to pull the required documentation for excess IT equipment and properly
remove the equipment from the Navy Enterprise Resource Planning System.

We request that the Navy Chief Information Officer and the Commander of the Naval Air
Warfare Center Aircraft Division reconsider their position on Recommendation 6.d and
provide additional comments in response to the final report.

7. We recommend that the Commander, 436th Medical Group, Dover Air Force
Base, and the Commander, 50th Space Communications Squadron, Schriever Air
Force Base:

       a. Account for all hard drives removed from their computer shells.

        b. Account for hard drives removed from their computer shells that contain
sensitive information in an electronic record-keeping system as required by DOD
Instruction 5000.64, “Accountability and Management of DOD Owned Equipment
and Other Accountable Property,” November 2, 2006.


Management Comments Required
The Commander, 436th Medical Group, Dover Air Force Base, and the Commander,
50th Space Communications Squadron, Schriever Air Force Base, did not provide
comments on the draft report. We request that the Commanders provide comments on
the final report.




                                            18
Appendix A. Scope and Methodology
We conducted this performance audit from November 2007 through June 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted this audit to determine whether DOD sanitized and disposed of excess
unclassified IT equipment in accordance with Federal and DOD requirements. We tested
the following to answer the audit objective.

      Information Security: We determined whether DOD Components had properly
       sanitized and properly prepared documentation for the excess IT equipment
       before forwarding it to the DRMS processing centers. In addition, we determined
       whether DRMS processing centers confirmed proper documentation of excess IT
       equipment before processing it. We used the Disposition Memorandum as the
       criteria to evaluate the internal control related to information security.

      Physical Security: We determined whether DOD Components and the DRMS
       processing centers implemented appropriate internal controls to protect equipment
       from pilferage. We used DOD Instruction 5200.08-R, “Physical Security
       Program,” April 9, 2007 as the criteria to evaluate the internal control related to
       physical security.

      Property Accountability: We determined whether DOD Components and DRMS
       processing centers properly accounted for IT equipment throughout its life cycle.
       We used DOD Instruction 5000.64 as the criteria to evaluate the internal control
       related to property accountability.

We accomplished the audit in two phases. In the first phase, we determined whether the
DRMS disposed of excess unclassified IT equipment in accordance with DOD
requirements. During this phase we visited DRMS headquarters, nine DRMS processing
centers, and two DRMS contractors’ locations from January through March 2008. In the
second phase, we determined whether DOD Components properly safeguarded sensitive
information residing on excess DOD IT equipment by properly sanitizing and accounting
for IT equipment before forwarding it to DRMS.




                                           19
From June through July 2008, we visited six DOD Components:

      USACE Louisville District;

      NAS Patuxent River;

      436th Medical Group, Dover AFB;

      108th Air Refueling Wing, McGuire AFB;

      21st Space Wing Command, Peterson AFB, Colorado; and

      50th Space Communications Squadron, Schriever AFB.

We selected a non-statistical sample of 543 out of 4,105 pieces of excess unclassified IT
equipment. The sample included laptop hard drives, desktop hard drives, digital systems,
and an electrocardiogram machine. To evaluate the controls exercised over excess DOD
IT equipment at each DOD Component, we reviewed inventory records and sanitization
and disposition documentation, and we interviewed personnel with DRMS and other
DOD organizations. In addition, using forensic software we tested excess hard drives to
ensure that all data had been removed. If not, we determined what type of data remained.
During Phase I, however, we tested hard drives at only two of the nine DRMS processing
centers because of lack of testing equipment. Finally, we evaluated the sufficiency of
physical controls over the excess IT equipment at each location visited.

Use of Computer-Processed Data
We relied on computer-processed data extracted from the Defense Reutilization and
Marketing Automated Information System, Management Information Distribution and
Access System, Asset Inventory Management System, and the Automated Personal
Property Management System. We did not find significant errors between the computer-
processed data and source documents that would preclude use of the computer-processed
data to meet the audit objectives or that would change the conclusions in this report.
Through existence and completion testing, we determined that the Defense Reutilization
and Marketing Automated Information System, Management Information Distribution
and Access System, Asset Inventory Management System, and Automated Personal
Property Management System data sources reliable. We did not perform tests on the
controls in place for the system, but validated the accuracy of the data extracted from
each system with other documentation and the results of our existence and completion
testing (book-to-floor and floor-to-book tests).

Use of Technical Assistance
We obtained technical assistance from two IT specialists from the DOD Office of
Inspector General, Information Systems Directorate. The IT specialists accompanied the
audit team to the Mechanicsburg and Wright-Patterson DRMS processing centers and to
Dover AFB to test processed DOD unclassified hard drives. For the remaining sites, the


                                           20
Information Systems Directorate provided the audit team with IT forensic equipment and
hands-on training to test hard drives to determine whether equipment still contained
readable information. If information was found on a piece of equipment, the IT specialist
analyzed the information to determine whether it was readable and what type of
information it was.

Prior Coverage
During the last 5 years, the Department of Defense Office of Inspector General (DOD
IG), Naval Audit Service, and the Air Force Audit Agency have issued four reports
discussing sanitizing, disposing of, and accounting for excess IT equipment in
accordance with Federal and DOD security and environmental laws and regulations.
Unrestricted DOD IG reports can be accessed at
http://www.DODig.mil/Audit/reports/index.html. Air Force Audit Agency reports can be
accessed from .mil domains over the Internet at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with
Common Access Cards.

DOD IG
DOD Report No. D-2008-114, “Accountability for Defense Security Service Assets With
Personally Identifiable Information,” July 24, 2008

Naval Audit Service
Report No. N2009-0014, “Control over Wireless Devices at Selected Commander, Navy
Installations Command and Naval Facilities Engineering Command Activities,”
December 17, 2008 (For Official Use Only)

Report No N2009-0027, “Processing of Computers and Hard Drives During the Navy
Marine Corps Intranet (NMCI) Computer Disposal Process,” April 28, 2009 (For Official
Use Only)

Air Force Audit Agency
Air Force Audit Agency Report No. F2005-0008-FC4000, “Demilitarization Process,”
September 8, 2005




                                           21
Appendix B. Label Certifying Hard Drive
Disposition

DOD Components are required by the Disposition Memorandum to complete and attach
the Certification of Hard Drive Disposition label to the hard drive or the computer
housing the hard drive. The signed label certifies that the hard drive has no readable
information on it. We have indicated examples of the types of information missing from
the labels included in our review.




                                          22
Appendix C. Immediate Action Memoranda to
DOD Components




                    23
24
25
26
27
28
29
30
31
32
33
34
35
36
37
Assistant Secretary of Defense (Networks and Information
Integration)/DOD Chief Information Officer
Comments




                             38
Department of the Navy Chief Information Officer Comments




                            39
40
41
42
U.S. Army Corps of Engineers Directorate of Corporate
Information Comments




                             43
U.S. Army Corps of Engineers Louisville District Comments




                             44
45
